HHS/OIG - Audit, "Review of Medicare Bad Debts for Hospital Inpatient Services Claimed St. Luke's-Roosevelt Hospital Center for Fiscal Year Ended December 31, 1999," (A-02-02-01016)
Department
of Health and Human Services
"Review of Medicare Bad Debts for Hospital Inpatient Services Claimed
by St. Luke's-Roosevelt Hospital Center for Fiscal Year Ended December 31, 1999,"
(A-02-02-01016)
September 16, 2002
Complete Text of Report is available in PDF format
(2.85 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review of hospital inpatient Medicare bad debts at St.
Luke's-Roosevelt Hospital Center (the Hospital) was to determine if the bad
debts claimed by the Hospital met Medicare reimbursement requirements.
The final report pointed out that the Hospital generally complied with Medicare
bad debt reimbursement requirements in claiming $1,141,841 on its FY 1999 cost
report.  However, we did find that the Hospital overclaimed $74,412, which
generally resulted from clerical errors.  The Hospital substantially concurred
with our findings and recommendations.